                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: A011 10042
                                                                                  11           Page 1 of 1



          January 2,2003

          ~ o m ~ l a i n a nalleges
                              t'     that Subject l2 and Subject 23 defrauded NSF by using ineligible funds to
          match NSF funds under the rant^. After determining that there was insufficient evidence of fiaud,
          we referred the case to the Cost Analysis and Resolution Branch of the Division of Contracts, Policy
          and Oversight. Such referral, coupled with a concurrent audit finding in a state auditor's report,
          resulted in Subject 1 being required to repay NSF $53,900 in disallowed costs.

          This case is closed.




I                          Investigator             Attorney                Supervisor                    AIGI


1     Sign 1date

                                                                                            NSF OIG Form 2 (1 1/02)
